HHS/OIG, Audit - "Review of Medicare Payments Made to Pacificare of California for Medicaid Special Status Beneficiaries for the period January 1, 1995 through December 31, 1998," (A-09-00-00103)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments Made to Pacificare of California for Medicaid
Special Status Beneficiaries for the Period January 1, 1995 through December
31, 1998," (A-09-00-00103)
May 23, 2001
Complete
Text of Report is available in PDF format (3.95 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Medicare pays an enhanced rate to health maintenance organizations
for beneficiaries who are enrolled in both Medicare and Medicaid.  The
beneficiaries for whom the enhanced rate is paid are referred to as Medicaid
special status beneficiaries.  This final report points out that Medicare
overpaid PacifiCare of California $1,438,782 during the period January 1, 1995
through December 31, 1998 for Medicare special status beneficiaries who were
not actually eligible for Medicaid during the months for which the overpayments
were made.